     Department of Homeland Security

     2IÀFHRI,QVSHFWRU*HQHUDO


  Information Technology Management Letter for the 

FY 2013 Department of Homeland Security’s Financial 

Statement Audit – Office of Financial Management and 

          Office of Chief Information Officer 





OIG-14-108                                  June 2014

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov


 
                                     June 24, 2014 
 
 
MEMORANDUM FOR:	             Luke McCormack 
                             Chief Information Officer 
 
                             Chip Fulghum 
                             Acting Chief Financial Officer 
 
FROM:	                       Richard Harsche 
                             Acting Assistant Inspector General 
                             Office of Information Technology Audits 
 
SUBJECT:	                    Information Technology Management Letter for the FY 
                             2013 Department of Homeland Security’s Financial 
                             Statement Audit – Office of Financial Management and 
                             Office of Chief Information Officer 
 
Attached for your information is our final report, Information Technology Management 
Letter for the FY 2013 Department of Homeland Security’s Financial Statement Audit – 
Office of Financial Management and Office of Chief Information Officer. This report 
contains comments and recommendations related to information technology internal 
control deficiencies that were not required to be reported in the Independent Auditors’ 
Report.  
 
We contracted with the independent public accounting firm KPMG LLP (KPMG) to 
conduct the audit of Department of Homeland Security fiscal year 2013 consolidated 
financial statements. The contract required that KPMG perform its audit according to 
generally accepted government auditing standards and guidance from the Office of 
Management and Budget and the Government Accountability Office. KPMG is 
responsible for the attached management letter dated March 11, 2014, and the 
conclusion expressed in it. 
 
Please call me with any questions, or your staff may contact Sharon Huiswoud, Director, 
Information Systems Audit Division, at (202) 254‐5451. 
 
Attachment 
 
                               
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




March 11, 2014


Office of Inspector General,

Chief Information Officer and Chief Financial Officer,

U.S. Department of Homeland Security

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards
generally accepted in the United States of America and Government Auditing Standards, we considered
internal control over financial reporting (internal control) as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the financial statements. In conjunction with
our audit of the financial statements, we also performed an audit of internal control over financial
reporting in accordance with attestation standards issued by the American Institute of Certified Public
Accountants.

In accordance with Government Auditing Standards, our Independent Auditors’ Report, dated
December 11, 2013, included internal control deficiencies identified during our audit that, in aggregate,
represented a material weakness in information technology (IT) controls and financial system
functionality at the DHS Department-wide level. This letter represents the separate limited distribution
report mentioned in that report, of matters related to the Office of Financial Management (OFM) and
the Office of the Chief Information Officer (OCIO).

During our audit we noted certain matters involving internal control and other operational matters that
are presented for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management and communicated through Notices of
Findings and Recommendations (NFRs), are intended to improve internal control or result in other
operating efficiencies and are summarized as described below.

With respect to OFM’s and OCIO’s financial systems’ IT controls, we noted certain matters in the
areas of security management, access controls, and contingency planning. These matters are described
in the General IT Control Findings and Recommendations section of this letter.

During our audit we noted certain matters involving financial reporting internal controls (comments not
related to IT) and other operational matters, including certain deficiencies in internal control that we
consider to be significant deficiencies and material weaknesses, and communicated them in writing to
management and those charged with governance in our Independent Auditors’ Report and in a separate
letter to the Office of Inspector General and the DHS Chief Financial Officer.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to
light all deficiencies in policies or procedures that may exist. We aim, however, to use our knowledge
of DHS’ organization gained during our work to make comments and suggestions that we hope will be
useful to you.

We would be pleased to discuss these comments and recommendations with you at any time.

The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any
other purpose.

Very truly yours,
                                  Department of Homeland Security
                            Information Technology Management Letter 

              Office of Financial Management / Office of the Chief Information Officer

                                        September 30, 2013


                                    TABLE OF CONTENTS

                                                                                          Page
Objective, Scope, and Approach                                                             2

General IT Control Findings and Recommendations                                            4

   Summary                                                                                 4

   Findings                                                                                4

   Recommendations                                                                         5

IT Application Controls                                                                    5

FY 2013 IT Notices of Findings and Recommendations at OFM and OCIO                         6





                                                 1

                                    Department of Homeland Security
                              Information Technology Management Letter 

                Office of Financial Management / Office of the Chief Information Officer

                                          September 30, 2013


                              OBJECTIVE, SCOPE, AND APPROACH


Objective

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”). In connection with our audit of the FY 2013 financial statements, we performed an
evaluation of selected general information technology (IT) controls (GITCs) and IT application controls
at the DHS Office of the Chief Financial Officer (OCFO) Office of Financial Management (OFM) and the
DHS Office of the Chief Information Officer (OCIO) to assist in planning and performing our audit
engagement.

Scope

DHS Treasury Information Executive Repository (DHSTIER) is the system of record for the DHS
consolidated financial statements and is used to track, process, and perform validation and edit checks
against monthly financial data uploaded from each of the DHS components’ core financial management
systems. DHSTIER is administered jointly by the OCFO Resource Management Transformation Office
and the OCFO OFM and is hosted on the DHS OneNet at the Stennis Data Center in Mississippi.

Approach

General Information Technology Controls

The Federal Information System Controls Audit Manual (FISCAM), issued by the U.S. Government
Accountability Office, formed the basis of our GITC evaluation procedures.

FISCAM was designed to inform financial statement auditors about IT controls and related audit concerns
to assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial statement audit. FISCAM also provides guidance to auditors when considering the scope and
extent of review that generally should be performed when evaluating GITCs and the IT environment of a
Federal agency. FISCAM defines the following five control categories to be essential to the effective
operation of GITCs and the IT environment:

	 Security Management – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.

   	 In conjunction with our test work of security management GITCs, limited after-hours physical
      security testing at select OFM and OCIO facilities was conducted to identify potential control
      deficiencies in non-technical aspects of IT security.

	 Access Control – Controls that limit or detect access to computer resources (data, programs,
   equipment, and facilities) and protect against unauthorized modification, loss, and disclosure.



                                                    2

                                    Department of Homeland Security
                              Information Technology Management Letter 

                Office of Financial Management / Office of the Chief Information Officer

                                          September 30, 2013


	 Configuration Management – Controls that help to prevent unauthorized changes to information
   system resources (software programs and hardware configurations) and provide reasonable assurance
   that systems are configured and operating securely and as intended.

	 Segregation of Duties – Controls that constitute policies, procedures, and an organizational structure
   to manage who can control key aspects of computer-related operations.

	 Contingency Planning – Controls that involve procedures for continuing critical operations without
   interruption, or with prompt resumption, when unexpected events occur.

IT Application Controls

We performed testing over selected key IT application controls on financial systems and applications to
assess the financial systems’ internal controls over the input, processing, and output of financial data and
transactions. FISCAM defines application controls as the structure, policies, and procedures that apply to
separate, individual application systems, such as accounts payable, inventory, or payroll.




                                                     3

                                    Department of Homeland Security
                              Information Technology Management Letter 

                Office of Financial Management / Office of the Chief Information Officer

                                          September 30, 2013


               GENERAL IT CONTROL FINDINGS AND RECOMMENDATIONS


Summary

During FY 2012, OFM and OCIO took corrective action to address certain prior year IT control
deficiencies. For example, OFM and OCIO made improvements over strengthening controls around
system security authorization and configuration management. However, during FY 2013, we continued to
identify GITC deficiencies that could potentially impact DHS’ financial data related to controls over
security management, access control, and contingency planning for DHS’ core financial system.

Collectively, the IT control deficiencies limited DHS’ ability to ensure that critical financial and
operational data were maintained in such a manner to ensure confidentiality, integrity, and availability. In
addition, these deficiencies negatively impacted the internal controls over DHS’ financial reporting and
its operations.

Of the four IT Notices of Findings and Recommendations (NFRs) issued during our FY 2013 testing, two
were repeat findings from the prior year, and two were new findings. The four IT NFRs issued represent
deficiencies in three of the five FISCAM GITC categories.

These deficiencies may increase the risk that the confidentiality, integrity, and availability of system
controls and DHS’ financial data could be exploited, thereby compromising the integrity of DHS financial
data used by management and reported in DHS’ financial statements.

While the recommendations made by us should be considered by DHS, it is the ultimate responsibility of
DHS management to determine the most appropriate method(s) for addressing the deficiencies identified.

Findings

During our audit of the FY 2013 DHS financial statements, we identified the following OFM and OCIO
GITC control deficiencies.

Security Management

After-Hours Physical Security Testing

On June 19, 2013, we performed after-hours physical security testing to identify risks related to non-
technical aspects of IT security. These non-technical IT security aspects included physical access to
printed or electronic media, equipment, or credentials residing within a DHS employee’s or contractor’s
work area or shared workspaces which could be used by others to gain unauthorized access to systems
housing financial or other sensitive information. The testing was performed at a DHS facility in
Washington, DC, that processes, maintains, and/or has access to financial data.

We observed 40 instances where passwords, sensitive IT information (such as server names or IP
addresses), unsecured or unlocked credit cards and laptops, and printed materials marked “For Official
Use Only” or containing sensitive personally identifiable information were accessible by individuals
without a “need to know”.

                                                     4

                                      Department of Homeland Security
                                Information Technology Management Letter 

                  Office of Financial Management / Office of the Chief Information Officer

                                            September 30, 2013


Access Controls

   Physical access to the interior rooms within DHS Enterprise Data Centers DC-1 and DC-2 hosting
    key DHS financial systems was not consistently recertified.

Contingency Planning

	 DHSTIER backup logs were not consistently maintained or rotated to an offsite storage facility.

Recommendations

We recommend that the DHS OCIO and DHS OCFO, make the following improvements to DHS‘
financial management systems and associated IT security program.

Security Management

	 Continue to conduct DHS security awareness training and increase monitoring activities to enforce
   compliance with the criteria established by the DHS rules of behavior related to safeguards against
   unauthorized physical access of sensitive DHS information.

Access Controls

	 Fully define and document responsibility for, and consistently implement controls related to the
   periodic review of physical access to the interior rooms within DC-1 and DC-2 hosting key DHS
   financial systems.

Contingency Planning

	 Continue to sustain the corrective action implemented during FY 2013 to enforce existing policies and
   procedures related to DHSTIER backups to ensure that logs are consistently maintained and rotated to
   an offsite storage facility.

                                    IT APPLICATION CONTROLS

We conducted testing over certain DHSTIER application controls supporting in-scope processes during
the OFM and OCIO component of the FY 2013 DHS financial statement audit and did not identify any
control deficiencies.




                                                     5

                                    Department of Homeland Security
                              Information Technology Management Letter 

                Office of Financial Management / Office of the Chief Information Officer

                                          September 30, 2013


   FY 2013 IT NOTICES OF FINDINGS AND RECOMMENDATIONS AT OFM AND OCIO 


FY 2013 NFR #                       NFR Title                          FISCAM Control        New     Repeat
                                                                            Area             Issue    Issue
CONS-IT-13-01    Security Awareness Issues Identified during After-   Security Management              X
                 Hours Physical Security Testing at DHS
OCIO-IT-13-01    Inadequate Recertification of DC-2 Physical            Access Controls                X
                 Access
OCIO-IT-13-02    Backup Log Rotation Not Consistently Performed       Contingency Planning    X
OCIO-IT-13-03    Inadequate Recertification of DC-1 Physical            Access Controls       X
                 Access




                                                      6

                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

   
   AppendixA
   ReportDistribution
                          
   DepartmentofHomelandSecurity
   
   Secretary
   DeputySecretary
   ChiefofStaff
   DeputyChiefofStaff
   GeneralCounsel
   ExecutiveSecretary
   Director,GAO/OIGLiaisonOffice
   AssistantSecretaryforOfficeofPolicy
   AssistantSecretaryforOfficeofPublicAffairs
   AssistantSecretaryforOfficeofLegislativeAffairs
   UnderSecretaryforManagement
   ChiefFinancialOfficer
   ChiefInformationOfficer
   ChiefInformationSecurityOfficer
   ChiefPrivacyOfficer
   
   OfficeofManagementandBudget
   
   Chief,HomelandSecurityBranch
   DHSOIGBudgetExaminer
   
   Congress
   
   CongressionalOversightandAppropriationsCommittees,asappropriate




www.oig.dhs.gov                                                             OIG-14-108
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
